<html>
<title> - PEACEKEEPING IN THE DEMOCRATIC REPUBLIC OF THE CONGO</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




          PEACEKEEPING IN THE DEMOCRATIC REPUBLIC OF THE CONGO

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AFRICA

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, FEBRUARY 15, 2000

                               __________

                           Serial No. 106-115

                               __________

    Printed for the use of the Committee on International Relations


 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
65-150 CC                    WASHINGTON : 2000 




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                         Subcommittee on Africa

                 EDWARD R. ROYCE, California, Chairman
AMO HOUGHTON, New York               DONALD M. PAYNE, New Jersey
STEVE CHABOT, Ohio                   ALCEE L. HASTINGS, Florida
TOM CAMPBELL, California             GREGORY W. MEEKS, New York
GEORGE RADANOVICH, California        BARBARA LEE, California
THOMAS G. TANCREDO, Colorado
                Tom Sheehy, Subcommittee Staff Director
               Malik M. Chaka, Professional Staff Member
        Charisse Glassman, Democratic Professional Staff Member
                 Charmaine V. Houseman, Staff Associate




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Richard Holbrooke, U.S. Ambassador to the United 
  Nations........................................................     9

                                APPENDIX

Prepared statements:

The Honorable Edward R. Royce, a Representative in Congress from 
  California and Chairman, Subcommittee on Africa................    30
The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    32
The Honorable Sam Gejdenson, a Representative in Congress from 
  Connecticut....................................................    34
The Honorable Tony Hall, a Representative in Congress from Ohio..    35
His Excellency Faida M. Mitifu, Ambassador of the Democratic 
  Republic of the Congo..........................................    39
Professor Ernest Wamba dia Wamba, President of the Rally for 
  Congolese Democracy............................................    43
His Excellency Dr. Simbi Mubako, Ambassador of the Republic of 
  Zimbawe........................................................    47
Government of Namibia............................................    53
Embassy of the Republic of Angola................................    60
Her Excellency Edith G. Ssempala, Ambassador of Uganda...........    62
His Excellency Dr. Richard Sezibera, Ambassador of Rwanda........    68
The Honorable Richard Holbrooke..................................    73

Additional material:

Questions submitted for the record for the Department of State...    79
Response to questions submitted for the record from the 
  Department of State............................................    81




 
          PEACEKEEPING IN THE DEMOCRATIC REPUBLIC OF THE CONGO

                              ----------                              


                      Tuesday, February 15, 2000,

                  House of Representatives,
                            Subcommittee on Africa,
                      Committee on International Relations,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:09 p.m., in 
room 2200, Rayburn House Office Building, Hon. Edward R. Royce 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Royce, Chabot, Tancredo, Payne, 
Meeks, and Lee.
    Also present: Representatives Gilman, Bereuter, McKinney, 
Crowley, and Hall.
    Mr. Royce. [presiding] The hearing of the Subcommittee on 
Africa will come to order. Before we begin, let me apologize 
for the tight quarters here today. As you know, the 
International Relations Committee full hearing room is 
undergoing renovation and so every effort was made to better 
accommodate you, but I'm afraid these are our quarters for this 
particular hearing.
    I'd like to welcome back all the Subcommittee Members. This 
is our first hearing of this Congress' second session and I'm 
pleased that we have the opportunity today to examine such a 
critical and timely issue as the proposed second phase of the 
United Nations peacekeeping mission for the Democratic Republic 
of Congo.
    The Subcommittee has been closely following developments in 
Congo for several years. I led a congressional delegation to 
Congo in 1997 and met with President Kabila a few days after he 
was inaugurated there. The Administration, at this point in 
time, is now prepared to approve a substantial peacekeeping 
effort for Congo. This hearing will give Subcommittee Members 
an opportunity to better understand American options regarding 
the Congo.
    The Great Lakes conflict is a complex and intense one. The 
level of fear, insecurity, and mistrust in the region is as 
high as anywhere in the world. How could it be otherwise, given 
the backdrop of the 1994 genocide? This makes the proposed U.N. 
peacekeeping operation a great challenge.
    While the Administration and the U.N. have a formulated 
plan, success for this ambitious undertaking is far from 
assured. To be successful, this operation, built on the fragile 
Lusaka Peace Agreement will have to have its share of breaks. 
Any scenario for success should be tested against the UN's 
large-scale Congo peacekeeping operation, which ended in 
failure in 1964. A key to success today will be making good on 
the Lusaka-mandated national dialogue, designed to bring a 
democratically based political stability to Congo.
    In facing this challenge, there can be no room for 
revisionism. In 1998, President Kabila did not have his 
democratic aspirations frustrated by the renewed outbreak of 
conflict. Before the August 1998 invasion he banned political 
parties. Before that invasion, he had unduly restricted 
nongovernmental organizations, harassed leading political 
figures, including Mr. Tshisekedi, and repressed the vibrant 
civil society that had struggled under Mobutu. In hindsight, 
more external democratic pressure should have been brought to 
bear. Meanwhile, conditions in rebel-held territory have been 
no better. There are accounts of attacks on religious 
independence, for example. I make these points to illustrate 
the extent of the challenge that the U.N. is attempting to 
tackle.
    I also want to suggest that we have some recent experience 
that should be valuable as the U.S. and U.N. attempt to prod 
along the national dialogue. Congolese democrats want external 
pressure, and it's incumbent upon the international community 
in proceeding with this large commitment to apply that 
pressure.
    Bringing about a successful national dialogue is but one of 
the many concerns we should all have about this plan. That 
doesn't mean, though, that the U.N. peacekeeping operation 
should not proceed. In 1994, the international community sat on 
the sidelines as nearly 1 million men and women and children 
were slaughtered in Rwanda. Three years ago, at a subcommittee 
hearing on the Congo, as the Mobutu regime was literally dying, 
I said that the U.S. has a role to play in the Congo because we 
can make a difference and because we have interests in doing 
so.
    It's worth noting that Americans long ago expressed a 
humanitarian interest in the Congo. The noted journalist and 
historian George Washington Williams and Mark Twain were 
central figures in a worldwide movement against slave labor in 
King Leopold's Congo.
    Today's genocide lurks and we have increasingly evident 
national security interests centered on rogue regime activity 
in the Congo, which I raised at our last hearing on this 
crisis. At that hearing, I also quoted a U.S. Institute for 
Peace study which called the Lusaka Peace Agreement, quote, ``A 
last exit on the region's highway to hell.'' Now that's strong 
language and it's strong language that is still valid.
    But, as we proceed with this U.N. option in an attempt to 
make a difference, let's make sure that we give ourselves and 
the people of the region the best chance of success. That means 
not band-aiding problems. In addition to prodding a successful 
national dialogue, there needs to be real disarmament, 
demobilization, and reintegration in the Congo. Territorial 
integrity must be respected and nonsignatories to Lusaka must 
be dealt with.
    Moreover, the U.N. needs competent peacekeepers. I share 
the chairman of the International Relations Committee's 
recently expressed concern over the incompetence of U.N. 
peacekeepers in Sierra Leone. High operating standards must be 
set. While Congress should not put up a stop sign for this 
peacekeeping operation, rules of the road must be established 
and must be obeyed.
    Finally, it's important that the U.S. doesn't turn this 
operation over entirely to the United Nations. While the Congo 
peacekeeping operation will not involve American troops, it 
must be bolstered by the active diplomatic engagement of the 
world's superpower. Success, as I've said, will require good 
luck. The parties to the conflict will have to make good on 
their Lusaka obligations. I urge them to look toward the future 
and do so. Success will also require a strong focus and will 
and a great deal of energy and imagination by the United 
States. Without this American commitment, failure is assured. I 
know that Ambassador Holbrooke appreciates this reality.
    The stakes for this peacekeeping operation are high. It is 
no exaggeration to suggest that the lives of thousands of 
Africans, if not more, are on the line. I will work to maximize 
this operation's chance for success, for failure is likely to 
sow devastating consequences.
    [The statement of Mr. Royce appears in the appendix.]
    Mr. Royce. I'd like to now recognize the Ranking Member of 
the Subcommittee, Mr. Payne of New Jersey, for an opening 
statement.
    Mr. Payne. Thank you very much, Mr. Chairman, and let me 
once again commend you for your attention to your position as 
Chairman of this Subcommittee. I appreciate your calling this 
very important hearing on peacekeeping in the Democratic 
Republic of Congo.
    This Subcommittee tends to look at the totality of the 
issue and what comes out of it, we always try to have a fair, a 
balanced, and a direct approach to the policy. I have to 
indicate that, on this Subcommittee in particular, 
bipartisanism is the way that we move forward. I'd also like to 
recognize Chairman Ben Gilman who is Chairman of the all 
overall Committee and has shown a strong interest in Africa.
    Let me also thank Ambassador Holbrooke for coming before 
this Subcommittee today. It was his tenacity that brought all 
of the signatories to the Lusaka accord to New York at the 
United Nations headquarters. I know it took a lot of persuasion 
because other meetings were called on the continent of Africa. 
The Mobutu Conference, for example, where all of the 
signatories did not attend. So I know it took an extra-special 
effort to bring all of the participants even five times further 
than the meeting that was held on the continent. So we really 
appreciate his tenacity.
    The interest that the Security Council, under his 
leadership, during the month of January, having President 
Mandela there talking about the Burundi situation; having Vice 
President Gore there talking about the whole crisis of HIV 
virus that causes AIDS, which will have to be confronted on a 
worldwide basis. Of course, persuading seven heads of state to 
come to the United Nations and let me commend you for that.
    As you know, this is our fourth hearing of the Subcommittee 
during the past 3 years. In each of those four previous 
meetings, we've had the one who has been there right on the 
firing line year in and year out as it relates to African 
affairs, our Assistant Secretary of State for African Affairs, 
Dr. Susan Rice, who not only for the Congo but in the early 
days of the Ethiopian/Eritrean situation and the problems in 
Liberia, but wherever there was a conflict on the continent, it 
was her skillful negotiations and ability that has brought us 
this far. It's good to see you here too.
    The development in the Congo has drastically changed over 
the 40 years since Congo gained its independence from Belgium. 
The conflict in the Congo is described as Africa's first world 
war, with nearly 12 countries involved.
    I hope that everyone will turn their phones off, because it 
is really distracting. If there's something very important, 
wait outside and they can get you there.
    That the involvement of so many countries really is a move 
in a direction that we do not like to see. With the three rebel 
groups getting safe haven for their refugees or for providing 
troops or providing resources really is a dangerous trend that 
we have seen over the past few years.
    It is ironic that during the Cold War, the U.S. spent more 
than $13 trillion on Defense, with Zaire profiting as a major 
staging ground. So much of the problems that we see there, the 
disintegration and lack of leadership, is certainly a direct 
result, as you know, of our world policy of the Cold War. 
Therefore, in my opinion, we, therefore, since we assisted 
getting Zaire into the problem that it's in, we have the same 
responsibility, in my opinion, to help them come out of the 
problem that's been created by 30 years of Cold War activities.
    Despite the vast mineral, agricultural, and water resources 
and its eminent potential as a country to serve as an economic 
power house for the whole continent of Africa, Congo has been 
plundered in nearly 30 years because of the vacuum left by a 
lack of leadership and, therefore, the potential and the people 
have suffered dramatically.
    I am concerned about the ethnic hatred and the genocidal 
overtones coming from the Uganda/Congo border. I think that 
arms embargo must be strongly enforced and possibly extended to 
countries that provide weapons to ethnic groups inciting 
genocide. We must strive to dismantle the institutional 
framework that underlie genocidal hatred.
    A key to all of this is a national dialogue which will, 
hopefully, let us finally begin to talk about disarmament and 
demobilization and reintegration and resettlement and bringing 
the people of the Congo into having the determination on their 
future.
    So, in conclusion, let me say that I had the opportunity to 
glance at the statement made by the Senator from Virginia, 
Senator Warner, where he stated that he did not want a single 
dollar going into Africa until we honor our commitments in 
Europe. I think that this is an unfortunate comment. I hope 
that he really didn't mean it. I know that he seems to be too 
intelligent to make a statement like that and, evidently, was 
misquoted. I know that he doesn't mean that.
    We should certainly move forward. I know you'll have an 
opportunity to clarify this issue. We know it's a big country; 
much is at stake. But I know that we need to have everyone 
involved.
    Another thing that disturbs me is I hear from some of my 
good friends on the other side, not on this Subcommittee, but 
the Full Committee in general, some of the staff members saying 
that we need to be sure that everything is in place before we 
move forward. I just hasten to use as an example of stumbled 
peace talks, we're in our 42nd year of peace talks in areas and 
we have never stopped funding because we've had indictments or 
convictions. We've had politicians go to jail. We've had failed 
negotiations. We've had people walk out.
    But, for example, Fiscal Year 2000, we see another $1 
billion added. 11.3 increase, for example, for the Wye Accord, 
which I support wholeheartedly and I have supported, for 
example, aid to Israel as long as I've been in Congress. But 
I've never heard people talk about let's not do it until 
everything is right, because we would have stopped it a dozen 
times, there. Thank you.
    Mr. Royce. Thank you, Mr. Payne.
    I'd like to now turn to the Chairman of the International 
Relations Committee, Mr. Gilman, who would like to make a 
statement.
    Mr. Gilman. Thank you.
    Mr. Royce. Welcome, Mr. Chairman.
    Mr. Gilman. Thank you, Chairman Royce. I want to thank you 
for arranging this important and timely meeting on this 
important issue.
    We want to welcome Ambassador Holbrooke and Assistant 
Secretary of State for African Affairs Susan Rice to our 
Committee. We appreciate your efforts to focus the Security 
Council's attentions on Africa during the month of January. 
We've been impressed with your personal energy and commitment, 
Mr. Ambassador, to address some of the world's most intractable 
conflicts. We're pleased that Chairman Royce was able to 
accommodate your request for an opening hearing on this 
important issue.
    I read your congressional notification with interest and 
had a number of questions. In fact, my staff conveyed some 11 
modest questions to the State Department last Wednesday and we 
requested responses to them prior to this hearing. Regrettably, 
we still don't have any of those responses. We hope you can 
clarify some of the questions we raised.
    Mr. Chairman, with your permission I'd like to submit a 
copy of the questions that we submitted to the State 
Department, for the record.
    Mr. Royce. That will be done.
    [The information referred to appears in the appendix.]
    Mr. Gilman. Thank you.
    Mr. Ambassador, a few weeks ago Secretary Albright and 
National Security Advisor Sandy Berger emphasized their desire 
to conduct a bipartisan foreign policy in close cooperation 
with the Congress. I know from our many conversations that you 
share that perspective and we thank you for reaching out to the 
Congress.
    It is therefore distressing that we've experienced so 
little in the way of forthright cooperation when it came to 
this important proposed peacekeeping operation. I assume it may 
be some laxity of the Department. We would welcome your 
clarifying it.
    Ambassador Holbrooke, you have rightly pointed out in the 
press that Congress recognizes the importance of this conflict 
in the Congo. However, it's the duty of the legislative branch 
to ask questions of the executive before we commit hundreds of 
millions of dollars overseas on any issue. In like manner, we 
believe it's the duty of the executive branch to provide 
answers to those questions.
    The recent record of peacekeeping in Africa, regrettably, 
has not been impressive. In Sierra Leone, for example, we just 
authorized the expansion of the peacekeeping operation to 
11,000 troops. To date, there have been at least five separate 
incidents in which rebel forces there have mugged U.N. 
peacekeepers and stolen rifles, and ammunition, armored 
vehicles, fuel, rockets, and cash. We are only 3 months into 
that peacekeeping operation and it already appears to be bogged 
down. We hope we're not going to be confronted with similar 
situations with regard to the Congo.
    Your testimony here, of course, is not about Sierra Leone, 
but about the Congo. Perhaps there is more reason to be hopeful 
in the Congo, but there are, clearly, some obvious reasons for 
concern. If Sierra Leone, a small nation with a comparatively 
good transportation infrastructure, presents such problems to 
U.N. peacekeepers, we're concerned what could happen in the 
Congo, a country 33 times that size. I think that that 
illustrates some of our concern.
    Mr. Ambassador, in his famous treatise, Carl Von Clausewitz 
warned leaders to consider carefully before embarking on war. 
He wrote, ``The first, the supreme, the most far-reaching 
active judgment that the statesman and commander has to make is 
to establish the kind of war on which they are embarking, 
either mistaking it for or trying to turn it into something 
that's alien to nature.''
    I believe that if Clausewitz were alive today, he might 
apply the same dictum to all of our peacekeeping operations. 
Those of us who support the United Nations, and I include 
myself, and who believe it has a crucial role to play in Africa 
are concerned. However, we fear the prospect of peacekeeping 
operations, like Somalia, are poorly defined, could end badly, 
and leave in their wake little support for future endeavors.
    I look forward, Mr. Ambassador, to your testimony here 
today and we look forward to reviewing the written answers to 
questions we asked about prior to approving funds for this 
peacekeeping mission.
    Thank you, Mr. Chairman.
    [The statement of Mr. Gilman appears in the appendix.]
    Mr. Royce. Thank you, Mr. Chairman. I also have a statement 
from the Full Committee's Ranking Member which, without 
objection, I will enter into the record.
    [The statement of Mr. Gejdenson appears in the appendix.]
    We've also been joined by the Vice Chairman of the 
International Relations Committee, Mr. Doug Bereuter of 
Nebraska.
    Mr. Bereuter, do you have a statement you'd like to make at 
this time?
    Mr. Bereuter. Chairman Royce, thank you for letting me 
attend today's hearing since I'm not a Member of this 
Subcommittee. I wanted to hear the testimony. I think the 
subject of the hearing is very important.
    I haven't seen Chairman Gilman's questions. I may have some 
of those questions myself. But by my presence here today, I 
wanted to demonstrate my support for the initiative that 
Ambassador Holbrooke and Secretary Rice will be explaining to 
us today. Beyond the importance of it and the legitimacy of 
taking this initiative, I think it also will enhance the 
American credibility in the United Nations and make it more 
likely that some of the reforms we've been pushing for, in 
fact, are reality.
    Thank you very much, Mr. Royce, for letting me sit in with 
you.
    Mr. Royce. Thank you, Mr. Bereuter. We've also been joined 
by Ms. Lee of Oakland, Mr. Chabot of Ohio, Mr. Tancredo of 
Colorado, Ms. Cynthia McKinney of Georgia, Mr. Crowley of New 
York, and Mr. Tony Hall of Ohio. All members will have a chance 
later to ask questions, but if any of you would like to have a 
brief opening remark at this time, we'll open it up. We've also 
been joined by Mr. Meeks of New York. Thank you.
    Any questions or any opening statement at this time?
    Ms. Lee. Mr. Chairman.
    Mr. Royce. Yes, Congresswoman.
    Ms. Lee. Thank you, Mr. Chairman. Let me just briefly thank 
you and our Chairman, Mr. Gilman, and our Ranking Member, Mr. 
Payne, for this hearing. Also Assistant Secretary Susan Rice 
and our Ambassador for being here.
    This is such an important issue for this country and for 
all of us here. Peace and stability in Africa is critical if 
we're going to address the HIV/AIDS pandemic and all of the 
other issues that the continent needs to address and very 
quickly must address. I want to thank the Ambassador for really 
helping us focus on the whole AIDS crisis in Africa because 
certainly none of these issues are separate. They all are 
interrelated.
    So I look forward to your testimony today. I hope that we 
can hear what the United States is doing in terms of ensuring 
that the Lusaka Agreement is moved forward and also in terms of 
peacekeeping. Whatever it takes, I think we must move ahead in 
that accord.
    Thank you.
    Mr. Royce. Thank you, Congresswoman Lee. We've also been 
notified that Congressman Hall would like to make a brief 
statement. I know he's just back from Sierra Leone so 
Congressman Hall.
    Mr. Hall. Thank you, Mr. Chairman. I do have a statement 
for the record. I won't read it. I just have a couple of points 
I want to make. I, like the other representatives, want to 
thank you for allowing me to be here. I don't serve on this 
Subcommittee. I don't serve on the Full Committee. I used to be 
on it when I was in my first term in the Congress.
    It's good to be with Ambassador Holbrooke and Assistant 
Secretary Rice. You're talking to our best people; our great 
representatives of our government. They have been at the heart 
of so many important issues and have performed so well. So I 
look forward to their testimony.
    I'm glad that you're focusing on Africa as well. It fits 
right in with the fact that 5,000 Americans are coming to 
Washington from all over the country this week to talk just 
about Africa and about the issues and about our policies.
    I'm troubled about some of the aspects of the proposal 
that's before us. There are many key points that all of you 
have mentioned. I think the one key point that I just want to 
touch on briefly is the fact that I think that, at the heart of 
this problem, are diamonds. It's an issue that, I hope, that we 
can address this year. The U.S. estimates that the trade in 
Congolese diamonds is about $600 million per year. That's cash. 
News reports say $20 million worth of Congolese diamonds pour 
through Rwanda and Uganda every month.
    I think diamonds are at the root of wars in three other 
countries: Sierra Leone, Liberia, and Angola. Capturing 
diamond-rich regions is one aim of these wars. Frank Wolf and I 
went to Sierra Leone. We've been all over Africa together. We 
see what diamonds do when they're used to buy weapons that 
terrorize people and keep these civil wars going.
    In the past 10 years, we have put about $2 billion on 
humanitarian aid into these countries but, at the same time, 
$10 billion in illicit diamonds has come out of them. Great 
Britain and Canada are with us on this. As Britain's foreign 
secretary, Robin Cook, put it, ``The diamond market is pretty 
tight. The places you can sell uncut diamonds are pretty 
limited. It should not be beyond our wit to devise an 
international regime in cooperation with the diamond trade that 
cuts off the flow of these diamonds to use them to buy arms and 
fuel conflicts.''
    So far, the diamond industry hasn't done much. They've had 
a public relations campaign going on. It hasn't really helped 
very much. They could police themselves. We've introduced a 
bill to cutoff illicit diamonds, to let Americans know where 
these diamonds are coming from. As a matter of fact, we buy 65 
percent of all the diamonds in the world. We ought to know 
where they're coming from. The United Nations has the ability 
to stop this. They can help on Congo right now, by sanctioning 
Congolese diamonds that are fueling this war.
    So, with that, I'd just want to thank you, Mr. Chairman. 
It's a very important hearing.
    [The statement of Mr. Hall appears in the appendix.]
    Mr. Royce. Thank you, Mr. Hall.
    We also have Mr. Meeks of New York who wanted to make an 
opening statement.
    Mr. Meeks. Yes and I'll be brief.
    Mr. Royce. Thank you.
    Mr. Meeks. But I just wanted to first thank you, Mr. 
Chairman, and Ranking Member Payne for conducting this hearing 
and holding this hearing today. But I particularly want to 
thank Ambassador Holbrooke and Secretary Rice for your 
leadership on this matter.
    The unprecedented event that took place at the U.N. 
Security Council earlier surely let all of us in the United 
States and the world know that Africa is a focus. As I look at 
that map on the wall, it just reminds me of how small the world 
has become. What is taking place in Africa will indeed affect 
us here in the United States of America and those all around 
the globe, as my colleague has talked about, particularly in 
reference to the AIDS epidemic. When you talk about the 
economies of all the world, it affects the economy here. I just 
think that it is very important for us, at this point, to not, 
because of what's going on, to not withdraw, but we need to be 
more affirmative in our actions as to what's taking place in 
Africa.
    When I look at, and I know it's a start, of the 5,000 some-
odd troops that we have there and we talk about how to enforce 
the Lusaka Agreement, we know that that's nowhere near enough, 
when we look at the size of that great country and that we need 
to let all of the countries that are involved know, I mean, and 
there are several countries that are involved in this, that the 
world is indeed looking at them. That is what will help force 
them to do what took place at the U.N. Council: sit down, talk 
to one another, and work out an agreement and have someone to 
oversee those agreements so that we could make sure that we 
could have peace.
    Our hands are not clean in this one. I don't think that is 
clear. Our hands are not clean and the Cold War will testify to 
that. I think that we just have an obligation to make sure that 
we do all that we can to have peace in the Congo and on the 
Continent of Africa.
    Thank you, Mr. Chairman.
    Mr. Royce. Thank you, Mr. Meeks.
    Now before we proceed, without objection, I will submit for 
the record statements presented by several of the countries 
involved.
    [Statements referred to appear in the appendix.]
    We're fortunate to have the presence of several 
Ambassadors, including Ambassador Mitifu of Congo here today. 
My message, again, to the Ambassadors is that we all need to 
cooperate now to make this process work. The international 
community's commitment to Central Africa cannot be taken for 
granted.
    We'll now go to our first panel. Ambassador Richard 
Holbrooke was confirmed by the Senate as the permanent U.S. 
representative to the U.N. last August. This was the latest in 
a diplomatic career that dates to 1962, when the Ambassador 
began his foreign career fresh out of Brown University. During 
his distinguished career, Ambassador Holbrooke has been a 
professional diplomat, a magazine editor, an author, a Peace 
Corps director, and an investment banker.
    Ambassador Holbrooke has taken a particular interest in 
Africa, for which he should be commended. In December, he made 
a lengthy tour of the Great Lakes region. In January, building 
on this trip, he engineered the attendance of seven African 
heads of state at a special session of the Security Council 
dedicated to the Congo crisis, which I was able to attend. At 
that session, these African leaders recommitted to the lagging 
Lusaka peace process.
    We look forward to hearing more about this process and the 
U.N. and U.S. commitment to the region. Ambassador, we thank 
you for your appearance. Before we begin, let me mention that 
the Assistant Secretary of State for African Affairs, Susan 
Rice, is with us also, available for questions. Dr. Rice, we 
thank you. Ambassador.

 STATEMENT OF THE HONORABLE RICHARD HOLBROOKE, U.S. AMBASSADOR 
 TO THE UNITED NATIONS; ACCOMPANIED BY ASSISTANT SECRETARY OF 
              STATE FOR AFRICAN AFFAIRS SUSAN RICE

    Ambassador Holbrooke. Mr. Chairman, thank you so much for 
inviting us to testify today. It's a great honor to appear 
before your Subcommittee for the first time. I am particularly 
pleased to be joined by Susan Rice, who will answer the tough 
questions after I deliver the single statement.
    The participation of so many members of this Committee in 
our efforts in New York in the last 8 weeks is a remarkable and 
extraordinarily important fact. I would like to begin by 
thanking you, Congressman Payne, Congressman Meeks, 
Congresswoman Lee, Congressman Crowley, Congresswoman McKinney, 
Congressman Bereuter, and, of course, Chairman Gilman and 
Congressman Hall and many others who are not here today for 
coming to New York; sitting with our delegation; meeting the 
permanent representatives; in your case, participating on the 
inner deliberations of the Security Council in an unprecedented 
way.
    I want to stress at the outset that in my 37 years in and 
out of the government, this was the most intense congressional 
consultative process I've ever been involved in. I was glad 
that Chairman Gilman made similar remarks last week at the 
Woodrow Wilson Center after my speech. I believe that you sent 
a very important signal to the U.N. membership and this went 
equally for the Members of the Senate who also visited. I think 
the U.N. permanent representatives are far more knowledgeable 
today than they were 3 months ago as to the role of the 
Congress, both houses, both parties, in the way we make foreign 
policy.
    I reiterate to those of you who haven't yet joined us in 
New York that we hope you will. Many of you can attest to 
whether the hospitality is sufficient or not, but we hope it 
is.
    Your continued interest in Africa is essential. We need 
your support. We cannot forge, in a period in which two 
different parties in an election year control the two branches 
of government, a foreign policy for Africa or almost any other 
part of the world without a bipartisan effort.
    We need your support because, as Congressman Meeks and 
Congresswoman Lee and others, Chairman Royce, have just said, 
because Africa matters. I'm very struck by the fact that the 
National Summit on Africa, which Leonard Robinson will begin in 
a few days and which many of you will participate in, has as 
its motto, ``Africa matters.'' That has been their motto for 
some years and we have adopted the same motto in New York in an 
effort to dispel the pernicious and false argument that the 
United States follows a double standard in regard to Africa, a 
point that Congressman Payne addressed very specifically a 
moment ago.
    Last December, we made a trip to 10 nations in Africa, 
accompanied by Senator Feingold and backed strongly by Chairman 
Royce and Congressman Payne, neither of whom were able to go 
but both of whom we consulted in detail before we left and who 
we talked to as soon as we returned. Susan and I were on that 
trip together along with Howard Wolpe. We had many items on our 
agenda, but two dominated: the spread of HIV/AIDS and the 
crisis in Congo.
    We are not here today to discuss AIDS, but I want to echo 
what Congresswoman Lee has already said. It is a scourge beyond 
imagination. We must deal with it.
    We are proud that the Vice President came to New York to 
begin the Month of Africa with a significant increase in what 
the Administration will ask for in regard to dealing with that 
problem. I've heard that many of you are considering bills 
which would be even higher than that number. I commend you for 
your attention. I know, because I spoke to President Clinton 
about this just 2 days ago, that he wishes to deal with this 
problem head-on.
    I can report to you today that the Security Council, having 
broken new ground by dealing with a health issue for the first 
time in its history, intends to keep it up. The Economic and 
Social Council will be having meetings on it. We are going to 
be meeting with businessmen in New York. We're working very 
closely with the White House. This was not a gimmick or a piece 
of theater; it was the beginning of an intensification of an 
issue which we cannot leave alone.
    I'd now like to turn to the Congo, Mr. Chairman, because we 
believe, as you know, that the time has come to take the next 
steps in the search to bring peace to that explosive area. You 
are aware, of course, of the fact that on February 7, the State 
Department notified this Committee and other Members of the 
Congress that the U.S. intends to support a resolution in the 
Security Council to expand the U.N. Observer Mission in the 
DRC, called MONUC for its French initials, M-O-N-U-C. This 
peacekeeping operation will subsume and expand upon the current 
U.N. mission in the Congo. It is imperative that we fulfill our 
responsibility to help.
    No Security Council resolution has yet been adopted, but as 
we speak here in Washington, my colleagues in New York are 
negotiating with members of the Security Council and other 
concerned countries, many of whose Ambassadors, I'm glad to 
say, in Washington, are sitting behind us today. I'm very 
pleased that you all could attend. We are negotiating with 
other Security Council members on the resolution, which we 
expect will be voted on next week and, in any case, no earlier 
than February 23.
    Let me now outline the background to the situation in the 
Congo and also address the specific concerns that were raised 
by some of you, particularly Chairman Gilman, Congressman Hall, 
and others. Let me say at the outset, Mr. Chairman, Congressman 
Gilman, that I regret that your questions were not answered 
prior to this hearing. I read them this morning for the first 
time. I believe we will answer most of them during this 
hearing, directly or indirectly, and we will be happy, 
Congressman Gilman, to give to you a more detailed written 
answer after this hearing.
    As you know, we focused on Africa in January in the 
Security Council. As several of the members have already said, 
we had seven heads of state and I might add two of the three 
rebel signatories to Lusaka come to New York at the end of 
January for the open meeting chaired by Secretary of State 
Madeleine Albright.
    The summit meetings and the follow-up and the private 
meetings not reported by the press went well. All of the 
leaders in New York recommitted themselves to the Lusaka 
Agreement, including, and I stress this, President Kabila, who 
was making his first trip ever to the United States. We also 
had in New York former President Masire of Botswana, who 
outlined his plans on the national dialogue.
    This morning I spoke to Ambassador Swing in Kinshasa, who 
had just concluded a 3-hour meeting with President Masire in 
Kinshasa, had just met with the U.N. special representative and 
was waiting to see President Kabila. He reported to us and 
asked me to report to the committee that President Masire has 
gotten off to an excellent start in the national dialogue. In 
fact, if you want to be precise about it, the national dialogue 
is not technically supposed to start for another month and a 
half or so, but President Masire has done a kind of a pre-
national-dialogue dialogue, which we are glad is off to a quick 
start. The United States will do everything it can to support 
President Masire and the OAU.
    But success, as all of you have already said, requires more 
than just talk. Action is necessary to prevent further conflict 
and the resurgence of genocide and mass killing in Central 
Africa. The U.N. can and must play a key role in this process 
and, in our view, the next step is to deploy the next phase of 
the process called for by Lusaka, that is a peacekeeping 
mission or, to be more precise, an observer mission backed up 
by support and logistics and security forces in the Congo as 
soon as it is practical to do so.
    Allow me, therefore, Mr. Chairman, to review for you the 
phased approach to peacekeeping in the Congo. I should stress 
that this plan reflects what the U.S. Government, including the 
Pentagon, has advocated as the best approach. For many months, 
the Pentagon-UN relationship--for many years, I should say--was 
perhaps not as close as it should have been, but, in the last 
month, the Secretary of Defense William Cohen has come to New 
York to talk to the leadership of the U.N. Undersecretary of 
Defense Walt Slocombe has been there twice and has invited his 
United Nations counterpart, Bernard Miyet, to Washington. Even 
as we speak, Secretary Cohen is in Pretoria on a swing through 
Africa.
    So I think you can see that the Pentagon involvement with 
Africa has dramatically increased in the last 6 weeks. I stress 
this point to you, because I do not think the U.S. Government 
can operate in these areas without an integrated policy that 
includes the Pentagon.
    After months in which the United States intentionally and 
publicly dragged its feet on this effort--and I had discussed 
this with many people in this room. I remember particularly 
conversations I had with Congresswoman McKinney on this point--
we had intentionally dragged our feet because we felt that the 
U.N. Peacekeeping Office did not have a viable plan and we felt 
that the Lusaka signatories had not been keeping their part of 
the bargain. We feel that, after the Month of Africa in New 
York, after the Pentagon's new hands-on relationship with the 
United Nations, that it is time to move to the next phase of 
the process. This approach ties U.N. deployments to concrete 
progress toward the Lusaka Agreement's objectives, both 
political and military.
    There are three phases to the Lusaka Agreement. The first 
phase focused on establishing liaison with the parties, their 
field commanders, and the Joint Military Commission. Phase I 
was launched in August of last year when the Security Council 
authorized MONUC to send up to 90 U.N. military liaison 
officers to the Congo and to the capitals of other African 
countries involved in this issue.
    Implementation during Phase I was imperfect. The cease-fire 
has been violated intermittently with heavy fighting in the 
northwest and around the central town of Ikela. The U.N. 
liaison officers also encountered some setbacks initially in 
their deployments. But today, 79 of the 90 military liaison 
officers have deployed to rear headquarters on both sides in 
multiple locations. Still they've been barred from some key 
sites, including those held in government areas.
    That being said, the peace process in Congo is moving 
forward, although slowly. Fighting that was once wide-scale has 
been contained to a relatively smaller number of areas. The 
international community is now poised for greater action and 
the parties have renewed their commitments. In no way, Mr. 
Chairman, do I wish to suggest by what I've just said that we 
minimize what is actually going on in the area now or recent 
reports of refugees in eastern Congo.
    As a result of the meeting of the JMC political committee 
in Harare on January 18 and the Security Council session that 
many of you attended in New York on January 24, the Lusaka 
signatories reiterated their commitment to the peace process 
and to providing full security and access for all U.N. 
personnel. Significantly, all parties including President 
Kabila, called for the immediate deployment of the Phase II 
military observer mission.
    The Secretary General's report on January 14 outlined the 
fundamental structure and mandate for Phase II. It recommended 
an expansion of the current U.N. mission of 90 military liaison 
officers to a 500-member observer mission with force protection 
and support, bringing the total up to 5,537 military personnel. 
If the Council authorizes this deployment, Phase II deployment 
of MONUC would begin when and only when key conditions are met, 
including security, access, and cooperation with U.N. 
personnel. No United States peacekeeping troops would be on the 
ground as part of this operation.
    The observers would monitor the implementation of the 
cease-fire on the ground, assist with the disengagement of 
troops at certain locations, and assist the JMC with developing 
the mechanisms to implement Lusaka. Phase II operation would 
not, repeat not, be an interposition force.
    Upon the successful completion of Phase II, the U.N. might 
recommend a Phase III operation to build on the progress of the 
national dialogue under President Masire and to support full 
and complete implementation of Lusaka. The precise mission size 
and functions of such a Phase III U.N. force remain undefined 
and cannot be defined in any precision at this time.
    I think Congressman Payne's point earlier about why you 
can't have certainty about the final phase before you go into 
the intermediate phase and his references to the Mid-East 
resonated with me. That is a very strong evocation of my own 
views, Mr. Congressman. Although I'd never thought about it 
that way, when you said it, I was very struck by it.
    We have stated repeatedly that the U.N. would not take on 
enforcement responsibilities, including any potential forcible 
disarmament of non-state actors. Let me stress, Mr. Chairman, 
transition to Phase III is not automatic, but would depend on 
developments during Phase II, including significant progress in 
the national dialogue. Any movement toward Phase III would 
require further Security Council action and would involve 
extensive consultations with you and your Committee at the same 
level of intensity of early consultations and discussions that 
has, I believe, characterized the relationship Susan and I have 
had with you and your Committee in the 5 or 6 months since I 
first got involved in this. I know that Susan has been heavily 
involved in the consulting with you long before that.
    Moving to the U.S. national interest, Mr. Chairman. We have 
a profound interest in regional stability in Central Africa, in 
preventing the resurgence of the genocide and mass killing 
which we saw in Rwanda in 1994. In particular, the former 
Rwandan Army, referred to as the ex-FAR, and the Interahamwe 
militia, who were heavily responsible for the genocide of 1994 
in Rwanda, are still operating in the region. They contribute 
significantly to instability. Congo is a contagion of crises. 
If the conflict there is allowed to fester, efforts to resolve 
conflicts and promote stability throughout the region in 
Angola, Rwanda, Uganda, Sudan, and Burundi, will be even more 
difficult.
    Let me at this point, Mr. Chairman, draw your attention to 
the fact that President Mandela will be in Arusha next week to 
try to prevent Burundi from exploding. President Clinton, who 
was invited to attend the Arusha meeting will not be able to 
attend because of prior commitments, but I can tell you today 
that, for the first time in history, at least as far as I'm 
aware, the President of the United States will participate in a 
negotiation by two-way teleconference and will, from the White 
House, participate in President Mandela's Arusha meeting. We're 
very proud of that fact. I know President Mandela is very 
pleased and he himself will return to New York for the second 
time in 6 weeks upon completion of the Arusha mission to bring 
us up to date on his efforts.
    So I want to stress that President Clinton is personally 
involved in the effort in Burundi and is actively following our 
efforts in the Congo and is following this hearing very 
closely.
    The political and military vacuum in the Congo has drawn in 
the rogue states I regret to say. Libya, Iran, North Korea, 
Cuba, and the Sudan are all finding ways to be opportunistic. 
These states are seeking a foothold in a destabilized Central 
Africa for weapon sales, political allies, terrorist bases, and 
access to strategic minerals.
    At this point, let me comment briefly on Congressman Hall's 
comment, although I guess he's left already, we share his 
concern. We have put $1 million down to work on this with 
Sierra Leone. It's part of the agreement that's supposed to 
bring peace to Sierra Leone. The Lome Agreement. I am 
profoundly troubled by the diamond problem. I do not, however, 
know how to get ahold of it in a fundamental way because of the 
unique and fungible nature of diamonds and the ease with which 
they can be moved across international borders. For all these 
and more reasons, Mr. Chairman, the U.S. has a clear national 
interest to support the U.N. effort in resolving the conflict 
in the DRC.
    For purposes of clarity, let me review for you the key 
points. This operation will not involve U.S. troops. The 
observers in Phase II would monitor the cease-fire and verify 
the redeployment of the party forces to defensive positions as 
agreed upon in the agreement. Transition to Phase III in the 
future is not automatic. Movement to Phase III is dependent on 
the parties observing Lusaka; disengagement of forces along 
confrontation lines; substantial progress in the national 
dialogue; the completion by the parties of a viable plan for 
dealing with nonsignatory armed groups; further action by the 
U.N. Security Council; and extensive consultations and 
notification, if required, to this and other relevant 
Congressional Committees.
    Finally, Mr. Chairman, I want to assure you that the 
administration is fully aware of the risks of this operation. 
Any effort toward peace in the Congo will not be easy. However, 
while there are risks undeniably involved with Phase II 
deployments by the United Nations, the risk of inaction is far 
greater. We cannot promise you immediate peace in the Congo. 
What we can say is that without strong U.N. leadership, there 
is a high probability, in fact, a near-certainty, of a 
catastrophic disaster in Central Africa. Inaction risks the 
resurgence of genocide, as we saw in Rwanda, and the danger 
that this proxy war will devolve into a direct war between the 
states already involved.
    In conclusion, Mr. Chairman, let me point out that this 
past year has been a dramatic one for the United Nations in 
peacekeeping. New missions in Kosovo and East Timor and the 
expanded mission in Sierra Leone have not only greatly 
increased the number of U.N. peacekeepers in the field, but 
have added a new level of complexity to international 
peacekeeping. Congo is important, but success in these missions 
is also critical. We will not allow our concern for the Congo 
to come at the expense of our commitment to fulfilling our 
other missions, in particular Kosovo. No money will be 
reprogrammed from Kosovo for this program.
    To sustain all of these U.N. peacekeeping efforts, we need 
the support of other UN-member states, the parties to the 
various conflicts, and, most importantly, the support of 
Congress. Without the means to finance our assessed 
contributions to peacekeeping activities, the U.N. would be 
unable to fulfill its mandates.
    The stakes are high. The challenge is daunting. We cannot 
expect the U.N. to impose peace on the Congo. But it is 
imperative that the U.N. do what it can to support the peace 
process created by the African political leaders themselves. 
Failure to act could irreparably damage the capability and 
credibility of U.N. peacekeeping and American policy in Africa.
    Mr. Chairman, I thank you for your time. We hope that we 
will have the support of you and Chairman Gilman and your 
Committee. Your role is crucial to our success. I thank you 
again on behalf of Susan, myself, the Secretary of State, and 
the entire administration for the immense amount of time that 
you and your colleagues on this podium today have spent in New 
York in consultations leading up to this important hearing. 
Thank you.
    [The statement of Ambassador Holbrooke appears in the 
appendix.]
    Mr. Royce. I thank you, Ambassador Holbrooke. I have two 
questions, but before I ask them, I'm going to turn to the Full 
Committee Chairman, Chairman Ben Gilman. He has two questions 
for you.
    Mr. Gilman. Thank you, Mr. Chairman. I regret I'm being 
called to another meeting and I appreciate your allowing me to 
move ahead on my questions.
    Mr. Ambassador, we thank you for your review of where we 
are with this peacekeeping mission. We recognize it's an 
important mission and we recognize that it is complex.
    Mr. Ambassador, has the United Nations asked the 
administration to provide support to the proposed expansion to 
the current monitoring mission in the Democratic Republic of 
Congo?
    Ambassador Holbrooke. No.
    Mr. Gilman. Is the Department of Defense currently 
considering providing strategic airlift to the proposed 
peacekeeping force?
    Ambassador Holbrooke. No.
    Mr. Gilman. Will it be asked to provide lift to support the 
peacekeepers inside the DRC as well?
    Ambassador Holbrooke. They have not been asked at this 
point.
    Mr. Gilman. Will the administration seek reimbursement for 
any formal request from the U.N. for logistical support?
    Ambassador Holbrooke. I will have to get you a written 
answer on that because I need to consult the Pentagon whose 
leader is in Pretoria today I think addressing similar 
questions.
    Mr. Gilman. Thank you very much.
    In an editorial, Mr. Ambassador, in the Washington Post on 
February 14, yesterday, it was noted that ``The Congo plan is 
being discussed at a time when other major UN-led peacekeeping 
operations are faltering.'' While the editorial noted that the 
crisis in the Congo should not be ignored, it did suggest that 
the Administration would have a more credible case to make for 
an expanded mission in that country if you were more fully 
meeting the commitments you've made elsewhere in other 
missions, such as those in Kosovo and East Timor. What's your 
reaction to that editorial?
    Ambassador Holbrooke. Mr. Chairman, I read that editorial 
with great interest. It was a very smart editorial, but I would 
quibble with that last sentence. There is no question that the 
peacekeeping effort in Kosovo is encountering some very 
significant difficulties, as we speak, in the town of 
Mitrovica. They are widely publicized and deserve our undivided 
attention when we're dealing with the Balkans. Indeed, I 
participated in as many meetings on Mitrovica as I have on the 
Congo in the last few days. As for East Timor, East Timor is 
going quite well, all things considered. I wouldn't say that 
for the last 20 years, but the last 6 months have been pretty 
good.
    With all due respect to the rest of the editorial, which 
was very well informed, I would go back to what Congressman 
Payne, Congressman Meeks, and others said. I do not understand 
why a great nation, the world's only superpower, at the apogee 
of its power, cannot deal with the crisis in the Congo simply 
because we're having a problem in Kosovo.
    I underline one point again, Mr. Chairman, no reprogrammed 
funds away from Kosovo. Nothing we do in Congo will in any way 
diminish the resources we have to support our men and women on 
the line at Camp Bonesteel where Congressman Bereuter is about 
to lead a very important congressional delegation. We have made 
a firm commitment to you, to the Armed Services Committee, to 
Senator Warner, and to Chairman Helms as well as yourself. But 
I simply don't understand how you could follow a policy which 
says don't do it in the Congo until you have solved the Kosovo. 
Because Kosovo is one tough problem.
    The United States, without trying to be the world's 
policeman, without trying to solve every problem on earth, and 
there are dozens of problems way beyond our reach, should not 
say that we have to get Kosovo right before we do other things, 
because it may not be possible. I would also draw your 
attention to Tim Juda's article in today's New York Times on 
this same point.
    But I appreciate your point. I'm very glad you raised it 
because it gives us a chance to make clear, on behalf of the 
entire administration, that Kosovo will not in any way, shape, 
or form, be diminished by what we're asking from you today.
    Mr. Gilman. Thank you, Mr. Ambassador. Based on your 
familiarity with the U.N. and with its Department of 
Peacekeeping Operations, does the U.N. have the capability of 
handling three or more major missions in Africa, in Asia, and 
Europe?
    Ambassador Holbrooke. I don't know, Mr. Chairman. I really 
don't know.
    Mr. Gilman. We hope they do.
    Ambassador Holbrooke. If you want me to say yes, I'll say 
yes. But I----
    Mr. Gilman. I just want your accurate----
    Ambassador Holbrooke. I know you. I know you were expecting 
a different answer. But I would be misleading you if I said 
yes. The DPKO office is headed by an excellent senior French 
official, Bernard Miyet. He has only 300 people in that office. 
As you know, because you and I have discussed this before, he's 
understaffed. Much depends upon his success.
    Secretary General Kofi Annan, who I think is one of the 
finest international civil servants we have ever seen and I 
believe the best secretary general since Dag Hammerskjold is 
concerned about this issue, as you and I are. If the U.N. did 
not do such a great job in the early 1990's in peacekeeping 
twice in Africa and once in Europe--Rwanda, Somalia, and 
Bosnia--they have got to get it right this time. That is one of 
the reasons I have stressed the role of the Pentagon.
    I would draw your attention again to the fact that 
Secretary Cohen is in South Africa today on a very important 
trip. South Africa is critically involved in these issues.
    We are working overtime to help DPKO without taking over an 
area which is, after all, an international body. There is no 
friction between us. There is no national issue. There is no 
U.S.-French thing. We're working very closely together. But I 
don't know the answer to your question. Much depends on it. In 
fact, I have said in my speech that you and I did together a 
week ago, I have said that I think, overall, not just the 
Congo, but the future of the U.N. as a peacekeeping 
organization will depend on it.
    Now one last point, Mr. Chairman. When the U.N. was formed 
by Franklin Roosevelt, Winston Churchill, and the founding 
fathers, this was what they had in mind: conflict prevention 
and conflict resolution. This is through the Security Council 
and through a secretariat which would carry out its mandate. 
With a few notable exceptions, Namibia, Mozambique, and a few 
special cases, it's had a very mixed record. We must work with 
the U.N. to get it right.
    Because if we don't, consider the alternative. This is not 
an issue the American public or your esteemed body wishes to 
take over for the U.S. This is not going to fall in the same 
category as something in the heartland of NATO or where we have 
a solemn security treaty like Japan. We have to make the U.N. 
work.
    So I'm not prepared to give you a simple yes. All I can 
tell you is that the entire mission in New York and your direct 
involvement and support are critical to helping the U.N. get 
there. I stress again, the secretary general is 100 percent 
behind this effort. He knows how important it is.
    Mr. Gilman. Mr. Ambassador, we appreciate your candid 
assessment. We also appreciate the manner in which you're 
handling these very difficult problems.
    Just one last comment. How will a peacekeeping operation 
address Congo's financial commitments to the rogue states that 
you mentioned?
    Ambassador Holbrooke. Congo's financial commitment to the 
rogue states? I'm not sure I understand the question, sir.
    Mr. Gilman. President Kabila has some debts to pay. How 
will this peacekeeping operation affect those commitments?
    Ambassador Holbrooke. You mean, how will this.
    Mr. Gilman. Peacekeeping operation.
    Ambassador Holbrooke. Do you want to take it? It's a good 
chance to let Susan get warmed up here.
    Mr. Gilman. Thank you.
    Ms. Rice. Thank you, Mr. Ambassador. Mr. Chairman, I think, 
to be quite plain about it, MONUC itself will not directly 
address any obligations that Congo may have incurred to rogue 
states or even to neighboring states that have participated on 
its behalf in the Congo. That's not its mission. Nevertheless, 
the involvement of rogue states is a source of major concern to 
us, as Ambassador Holbrooke noted in his opening statement. We 
believe the best way to minimize the opportunities and the 
influence of those rogue states is through a lasting and 
effective peace in the Congo so there is no vacuum and no 
opportunity for them to gain a further foothold.
    Mr. Gilman. Thank you. Thank you, Ms. Rice, and thank you, 
Mr. Chairman, for allowing me.
    Ambassador Holbrooke. Mr. Chairman, we will give you 
written answers to the 12 questions. I apologize profusely that 
you didn't have them before this hearing. That was a logistical 
oversight. You should have. They're very good questions. They 
were helpful because we practiced answering them before we got 
here so we were ready.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Royce. Thank you, Mr. Chairman. Thank you, Ambassador 
Holbrooke for your commitment to respond in writing to those 
questions.
    Ambassador Holbrooke. In writing.
    Mr. Royce. Yes.
    [The answers to the questions appear in the appendix.]
    Mr. Royce. Thank you, Mr. Chairman.
    Now let me go to my two questions, if I could, Ambassador. 
The first would be this. The congressional notification for 
this peacekeeping operation notes that the Lusaka Peace 
Agreement calls on the Joint Military Commission to develop 
mechanisms for the disarmament and demobilization of non-state-
armed groups that are non-signatories of Lusaka. Now that would 
include the Interahamwe.
    As we've discussed before, this is critical, in my view, 
toward peace. So my first question goes to the question of how 
has the JMC worked to date? What kind of muscle does it have? 
How will it undertake this difficult task?
    My second question is this: When you sent the notification, 
in it it warns of ``a dangerous security vacuum that has drawn 
in rogue states which are seeking weapon sales, political 
allies, and access to strategic minerals,'' unquote. Now you 
cite this in your testimony as well.
    At our September hearing, when I asked the Administration 
about press reports of North Korean activity at the Lakasim 
uranium mines, the response was, and I'm going to paraphrase 
here, but the response was, yes, we have seen reports of a few 
hundred North Koreans in the country but we cannot tell you, 
with any precision, where they are or what they are doing. With 
this notification, the administration seems to be suggesting 
that it has a better sense of what the North Koreans are up to 
and, in fact, last week there were more press reports of North 
Koreans mining uranium in Congo.
    Now on this issue, it is worth noting that over 80 percent 
of the uranium in the Hiroshima and Nagasaki bombs came from 
the Congo mines. What, exactly, can you tell us about North 
Korean and other rogue state activity in Congo? Ambassador, is 
a U.N. peacekeeping operation the best way to deal with this 
challenge?
    Ambassador Holbrooke. On the first part of your question, 
Mr. Chairman, as all of us who traveled in Southern Africa in 
the last few months saw--and I know this includes Congressman 
Payne, the CODEL headed by Congressman Gephardt, Congressman 
Houghton, myself, Senator Feingold, many of your colleagues, as 
you know from our discussions--the JMC, the Joint Military 
Committee got off to a very, very slow start.
    It is for this reason that we have been clear, and this is 
where the Pentagon's role has been so valuable, that the Joint 
Military Committee and the United Nations must colocate and 
work together in the closest possible manner. We are not going 
to vote for the Security Council resolution until we get this 
right. As we speak, Susan has been sending cables out to her 
Ambassadors in the region about this. It's a very technical 
issue at one level. It's a very simple issue at the other. 
We're not going to move forward until our own military people 
are satisfied.
    On the second issue, I'd like to ask if Susan could address 
this because she has been heavily involved in this for some 
time. It was not clear to me who you were quoting earlier. May 
I just----
    Mr. Royce. In terms of press reports?
    Ambassador Holbrooke. No, you quoted somebody from----
    Mr. Royce. Ambassador Wolpe.
    Ambassador Holbrooke. Was it Howard Wolpe?
    Mr. Royce. Yes.
    Ambassador Holbrooke. That's what I thought. Susan.
    Ms. Rice. I'd like to think I haven't been heavily involved 
with North Koreans over a long period of time.
    But, in any case, Mr. Chairman, as you know, we can provide 
futher details on this question in a closed session, some of 
which would not be appropriate here for an open session. But 
as, I think, you and others on the Committee know that the 
North Koreans have had ties for many years to a number of 
African countries, including Congo, going back to the era of 
Mobutu.
    North Korea, as you know, has its own uranium mines and the 
quality of their ore is suitable already for military purposes. 
The Congo mines in Katanga Province in southeastern Congo have 
not produced uranium for several years and have not received 
proper maintenance. The mines would require a great deal of 
capital investment for future exploitation.
    So that is what we can share with you in this session. 
We're happy to provide what details we have further on this 
subject in a closed session.
    Mr. Royce. I raised this issue with President Kabila as 
well. The answer was much the same in terms of the assumption 
that, because President Mobutu had a North Korean presence, 
this justified a North Korean presence today. Basically, the 
position was, we had a contract. I joked at the time, it's a 
rule of law thing. You've got a contract that you couldn't 
break.
    I think there's a lot that we don't know. In talking with 
others from the region and from representatives from other 
states, there's a great deal of concern here. I will be 
following this up. But I thank you very much for your questions 
and I'm going to turn to our ranking member, Mr. Payne of New 
Jersey, for his questions.
    Mr. Payne. Thank you very much, Mr. Chairman. Mr. 
Ambassador, we know that some of the weapons are coming from 
Russia, Bulgaria, perhaps the Ukraine, some of the Baltic 
states. Have we tried any kind of negotiation in the region of 
those capitals to try to meet with their leadership as it 
relates to trying to get them to cease and desist in the supply 
of military weapons to the various belligerents in the conflict 
in the DRC?
    Ambassador Holbrooke. Efforts have been made. I've talked 
to several of the countries you've mentioned directly in New 
York, and our Ambassadors have in capitals. I would be 
misleading you if I suggested we're satisfied with the 
responses, even from the countries we have good relations with. 
Of course, there are some rogue states heavily involved in this 
operation. It is a very serious aspect of the problem.
    I don't believe it can be dealt with, absent progress on 
the political front. That's just an instinctive feeling on my 
part. But it is a real problem.
    I do not, however, Congressman Payne, despite the 
importance of it, and I completely agree with what you and 
Chairman Royce have said about its importance, I do not 
actually believe it's the critical variable here. I think the 
critical variable is political will and not simply leverage on 
arms sales. Here, the immense wealth of the Congo is its 
greatest tragedy, of course. There's just all this money going 
into the wrong hands and being spent for the wrong purposes. 
Angola as well.
    Mr. Payne. I had an opportunity to speak to most of the 
heads of state there at the U.N. I was unable to speak directly 
with Mr. Kabila, but the question that I would have asked him 
with the JMC, they are supposed to each work in concert with 
demobilization, attempting to go and to disarm or to bring the 
Interahamwe and the ex-FAR out of the Democratic Republic of 
Congo and reintegrate it back into their countries of Uganda 
and, primarily, Rwanda.
    In your conversations with Mr. Kabila, or maybe Mr. Royce 
had a chance to see him. He's the chairman and I missed out 
because I saw him when nobody went out to catch him. Is there 
willingness on the part of the government to try to separate 
the Interahamwe from average ex-military Hutus, who are not all 
Interahamwe or who are not genocidaires but who could be 
separated and those who are accused sent to the authorities in 
Arusha or in Rwanda?
     Ambassador Holbrooke. The starting point for an answer to 
this rather critical question is quite basic. President Kabila 
has signed the Lusaka Agreement, which calls for the disarming 
of the non-state armed forces. One of those armed forces is 
about as odious a group as the world has seen since the Khmer 
Rouge were at their height. In fact, they are really the 
African equivalent of the Khmer Rouge, and that's the group 
you're referring to. Or at least parts of it.
    Now, we have some problems here. We don't really know the 
exact size. We had several very interesting private meetings in 
New York between the presidents, some of which I discussed with 
you and Chairman Royce privately. They argued vehemently about 
the size of the ex-FAR and Interahamwe; who's supporting them; 
where they are; how heavily they're armed. Our information is 
very uneven. So it's very hard for me to give you a clear 
answer.
    However, if President Kabila does not honor his part of the 
commitment, we would have a serious problem. His response, were 
he here today, would be let the other side honor its 
commitments. There are obligations on both sides here. The 
African parties involved in this fighting have split in a 
tragic way along lines that are both hostile and supportive of 
the government in Kinshasa.
    I, while the ex-FAR/Interahamwe issue is probably--not 
probably, it is certainly--one of the two or three critical 
issues, it cannot be solved unless the other elements of the 
Lusaka process are also dealt with in parallel processing: 
disarming other foreign elements; getting the national dialogue 
moving; and, and this is why we're here today, getting the 
United Nations to start putting its Phase II observer mission 
in. If any part of that process breaks down, we're going to be 
back to square one, notwithstanding all the drama and good 
words of the Month of Africa in New York.
    Mr. Payne. Thank you very much, Mr. Chairman.
    Mr. Royce. Thank you, Mr. Payne. We're now going to go to 
the Vice Chairman of the Full Committee, Mr. Bereuter of 
Nebraska.
    Mr. Bereuter. Thank you, Mr. Chairman. Ambassador 
Holbrooke, thank you very much for your testimony. I would seek 
comments from you in two areas. Next week the congressional 
delegation I'll lead will visit with the European NATO 
countries and Canada plus European Union personnel, including 
Javier Solano and Chris Patton. First, what level of 
cooperation and interest are you getting from the Europeans in 
moving ahead with Phase II of MONUC?
    Second, what kind of benchmarks should we look for--actions 
accomplished, actions taken on the part of the United Nations 
to prepare themselves to make sure that Phase II does work and 
that we find ourselves ready to take on Phase III?
    Ambassador Holbrooke. On your first question, Congressman, 
the Europeans are fully supportive, right now, of what is 
happening. There is a lot of the traditional rivalries of 
Central Africa, which have such a long history going back into 
the pre-independence era, have not manifested itself this time 
around so far. Probably because everybody realizes that, as 
Secretary Albright has said, we could be on the brink of the 
first world war of Africa and that would be a tragedy.
    So our cooperation with all of the groups you mentioned 
and, indeed, with Solano himself, with whom I met at length on 
this. Chris Patton, who also has a role. The British, French, 
Belgium, and Canadian Ambassadors. The Canadians are very 
active here and they're looking forward to playing an important 
role. It's been very good.
    There is one area, though, that I'm concerned about. That's 
the one Congressman Hall raised: diamonds. Diamonds are a whole 
different issue. They transcend everything else. I don't 
profess to understand the issue. I doubt anyone in this room 
really does, but Congressman Hall was very right to single it 
out.
    On your second question, the benchmarks, perhaps we could 
submit for the record the Harare Declaration of January 18 in 
which they laid out their own benchmarks. The answer to your 
question is the Africans have given us the benchmarks. There 
are a series of very precise dates by which certain things must 
happen. One of the reasons we dragged our feet earlier, the 
point I made earlier, was because they were missing their own 
benchmarks. They hadn't appointed a facilitator. They hadn't 
started the withdrawals. Under those circumstances, it seemed 
inappropriate for us to start down the U.N. peacekeeping route.
    Mr. Bereuter. Ambassador, you expect the Security Council 
would accept or has endorsed those kinds of benchmarks?
    Ambassador Holbrooke. Yes. The Security Council actually 
endorsed Lusaka in macro terms when it came out. In the draft 
resolution we're now negotiating, we will reendorse Lusaka.
    That brings us to the benchmarks. I mentioned earlier Mr. 
Masire. The fact that he is in Kinshasa today for the first 
time on an agreement that was signed on July 10 is really a--
let us not underestimate this. He is in charge of the all-
important political dialogue. We've finally gotten him there. I 
don't think it's a misstatement to say that the United States 
played a role of which we can all take some pride that he's 
there. He just spent 3 hours with President Kabila.
    So the benchmarks, which we will submit to you in writing, 
Congressman, are very clear.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Mr. Royce. Thank you, Mr. Bereuter. We'll go to Ms. Lee of 
California.
    Ambassador Holbrooke. Could I just ask you, Congressman, to 
please convey to the American troops at Camp Bonesteel and to 
the commanders particularly that there will be no reduction in 
our support for their efforts because of any other activities 
in any other part of the world? It's very important, because we 
are focusing on Africa, but nothing will diminish our support. 
You will be leading the biggest CODEL, I think, ever to go to 
Bonesteel. So it would be very helpful to us.
    Mr. Royce. We'll take that assurance. Thank you.
    Ambassador Holbrooke. Thank you, sir.
    Ms. Lee. Thank you, Mr. Chairman. Ambassador Holbrooke, I 
would once again thank you for bringing all the signatories 
together and the heads of state at the United Nations.
    I read and have talked to you a little bit about these 
discussions that took place. Obviously they were very 
difficult. I'm wondering, in terms of the reluctance to proceed 
with Lusaka, where do you see any reluctance among the 
signatories to the agreement? Or is everyone kind of waiting 
for the other to move forward?
    Ambassador Holbrooke. No, I think it's more the latter. 
This has got to be parallel processing. The way I envisage 
Lusaka, everyone has their own metaphor, Congresswoman Lee, but 
the way I envisage it, it's like one of those old-fashioned 
European train stations where all the trains are lined up at, 
Victoria Station, together. One is called the national 
dialogue. That's under President Masire. One is called the ex-
Far/Interahamwe. One is called the rebel forces: Bemba, Wamba 
dia Wamba, and Ilungo who, between them, have 25,000 to 30,000 
armed men in the field. One is called the foreign forces under 
the control of the pro-Kinshasa forces, the so-called 
``allies.'' Then there are forces in the field that oppose 
them.
    Each one of those is a track. All of them need to move 
forward together. If one doesn't move, the others are going to 
say, I'm not moving. In that sense, it's very similar to what 
we've tried to do in Bosnia with two major differences. This is 
far more complicated because there are more actors, more 
participants. Second, American military power, NATO force of 
the sort we had available to us in the Balkans is not a clear 
option.
    But in terms of parallel processing, it takes an immense 
amount of effort. Howard Wolpe's name has been mentioned 
earlier today, your former colleague. He would be with us today 
except that Susan has sent him out to the region to work on 
this issue, pushing those trains forward and, also, to join 
President Mandela in Arusha.
    Ms. Lee. Yes, I was going to ask you. What is our role, 
then, and how can the United States be helping you in moving 
these three tracks forward as quickly as possible?
    Ambassador Holbrooke. With the greatest respect for the 
sovereignty, independence, and territorial integrity of all the 
states in Central Africa, the United States should continue to 
do what it's been doing.
    Here I'd like to make a point. I had been told by many 
people that there would be sensitivity on the part of the 
African states if the U.S. was too, ``aggressive.'' All I can 
tell you is that that was not what Susan and Howard and I found 
on our trip. I felt that, despite our legacy in a country that 
used to be called Zaire, which is a very specific, unique 
historical burden, but what I now think is clearly in the past, 
after President Kabila's trip to New York, despite that legacy, 
the African states understand that this is no longer the Cold 
War; that the U.S. has no live-or-die strategic interest at 
stake in Africa.
    We are there to help them because it is in our long-term 
interest to do so; because it's the right thing to do; because, 
as the wealthiest nation of the world and the only superpower, 
we can do it through the U.N. and that we have no vested 
interest and we're not taking sides. That all we're doing is 
trying to help the African leadership implement what Salim 
Salim, the OAU's secretary general calls, ``an African solution 
to an African problem.''
    As you well know, because you and I have talked about this, 
this is my first extended involvement with Africa. Before it, I 
called on many of you. I spent 2 hours with Congressman Payne, 
an hour with Chairman Royce, and got your advice. What I found 
was that the leadership in Africa, and I think that's 
demonstrated by the quality of the Ambassadors sitting behind 
us today, welcomed our activities in support of their policy, 
as long as we don't put forward an American plan. We don't have 
an American plan, Mr. Chairman. What we have is American 
support for the African plan, the Lusaka plan, through the U.N.
    I have been assured by every African leader, including 
leaders who are really hostile to each other, that they all 
want continued American engagement. That specifically includes 
this Committee.
    Mr. Royce. Thank you, Ambassador. I know we have just 
enough time here for a question from Mr. Meeks and one from Mr. 
Tancredo. Mr. Meeks.
    Mr. Meeks. I just want to echo what you just said. I've 
found in my conversations with some of the presidents that I 
had the opportunity to talk to in the United Nations, that they 
did very much, in fact, want the UN's involvement because they 
thought that if peace were to happen, it could not happen 
without the U.N. and the United States.
    But, also, I have a number of individuals from the Congo 
that live in my district. One of the things that seems to 
emanate from them quite often is what can the U.S. and/or the 
U.N. do? Whether or not there was anything under the U.N. 
charter that would help humanitarian causes for the civilians 
and the hundreds or thousands of civilians that are being 
killed every day, is there anything that we can do or can the 
U.N. to enforce, through their charter, so that we can have 
some kind of mandate with regards to the civilians that are 
being killed in the Congo?
    Ambassador Holbrooke. I couldn't agree with you more, 
Congressman Meeks, about the humanitarian consequences of this. 
That's why we had the special session on refugees in Africa on 
January 13 with Mrs. Ogata. In that session, I really took the 
gloves off and blasted the United Nations, and will gladly 
repeat it here again today, for an arbitrary distinction 
between a refugee and an internally displaced person, which 
leaves somewhere between 2, 3, and 90 percent of the refugees 
in Africa uncovered by the UNHCR.
    I find a lamentable situation. I have talked to the head of 
the World Food Program, Carolyn Bottini, about it. I have 
talked to Mrs. Ogata. I do not think we can let these issues 
slip through the cracks. Mr. Chairman, I would urge that you 
consider additional hearings on the refugee issue.
     But I hope, if you do so, you will help us address what I 
think lies behind your question. In Angola, for example, 90 
percent of the homeless people are not considered refugees 
under the U.N. definition. Worldwide, including Asia and 
Central America, two-thirds of the homeless people in the world 
don't fall under the U.N. definition of refugee. So they get 
catch-as-catch-can help from the World Food Program and so on.
    Now this is, let's be honest with each other, when I talk 
about this, if we decide to undertake, it may mean some 
additional money. It's a big decision. But if you go to a 
refugee camp in Congo or Angola and people say, this isn't a 
refugee camp, this is an IDP for internally displaced people, 
it's an acronym, you get very angry. I think that's what your 
Congolese constituents are reflecting. I share that concern. I 
spent over 20 years of my life working on refugees in Asia and 
Africa and Europe. I would urge that you consider a separate 
hearing on this and bring in the refugee experts.
    I know that the secretary general and other people would 
welcome this kind of public exposure to a bureaucratic anomaly 
which is increasingly distressing as the African situation 
continues to cause the problems that Congressman Meeks referred 
to.
    Mr. Royce. Thank you, Ambassador. I want to thank the 
members of this panel for their participation today. We have 
one last question. I'm going to turn to Congresswoman McKinney 
of Georgia. Then we'll conclude this hearing.
    Ms. McKinney. Great, thank you. Thank you, Mr. Chairman. 
Actually, I have two questions. One is a theoretical question 
and one is a bit more pragmatic.
    We know that this Administration's Africa policy has as its 
cornerstone forging relationships with key renaissance leaders. 
Yoweri Museveni of Uganda is one of those leaders and Paul 
Kagame is another. The United States has a close military 
relationship with these countries, including lethal JCET 
training. The U.S. has supported multilateral loans for these 
countries, despite their having violated international law and 
invaded the Democratic Republic of Congo.
    These countries have invaded the DRC stating security 
concerns on their border, yet they station troops as far west 
in the DRC as Boma on the Atlantic Ocean. They are currently 
supported armed factions that have become known in 
international parlance as rebel groups. These armed factions, 
along with the invading troops of Uganda and Rwanda have 
committed and are committing crimes against humanity. In 
addition, they are fomenting nationalism, ethnic strife in 
Congo and the ready availability of weapons makes the situation 
even more lethal.
    I requested a briefing today from the State Department to 
know what the U.S. has done to emphasize in more than 
rhetorical terms for our allies that their invasion of Congo is 
unacceptable, that the United States stands with the rest of 
Africa and not with them in the de facto partition of Congo. 
That their continued presence is creating ethnic hatred 
heretofore unknown in the Congolese context.
    Unfortunately, Mr. Ambassador, I didn't get satisfactory 
answers to my questions. In fact, I learned instead that we 
still have a military relationship in IMET with these 
countries. That we have not yet voiced our concern about the 
situation with Archbishop of Bukavu, Monsignor Kataliko and 
that we continue to cover up and make excuses for our 
successive policy failures with respect to this region.
    Mr. Ambassador, can you tell me how your stewardship of the 
Great Lakes peace will be any different than the failed 
policies of the past that seemingly have abetted the current 
climate of ethnic hatred, genocide, revenge genocide, crimes 
against humanity, and the violation of any national law?
    My second question, Mr. Ambassador, is that I believe the 
U.N. must be the only place on the planet where colossal 
failures result in promotions. In 3 weeks, the U.N. apologized 
for its behavior in Rwanda, Srebrenica, in East Timor, and, 
this week, Kosovo. We have seen the U.N. repeatedly get it 
wrong and then those very people who got it wrong get promoted 
to more responsibility.
    Could you tell me what safeguards you will make sure get in 
place that, so that the Congo becomes a place of opportunity 
for the U.N. to redeem itself, rather than just another 
opportunity for yet another apology?
    Ambassador Holbrooke. Can I take the second question first? 
Who has been promoted as the result of Srebrenica in the U.N. 
system or Rwanda that shouldn't have been? I quite take your 
point about the Dutch. I don't understand how Colonel Karden 
could have been promoted after Srebrenica. But I don't see 
rewarding in the U.N. system. Do you have someone specific in 
mind?
    Ms. McKinney. I absolutely do have some specifics and we 
can talk about it afterwards if you like.
    Ambassador Holbrooke. Because I must say, I thought that 
the Rwanda and Srebrenica reports were truly courageous on the 
part of the secretary general insofar as he allowed reports in 
which he himself took some criticism.
    I take it you're not arguing with the substance of these 
reports. You agree with them. I certainly do. I've spoken out 
quite strongly on this. But I do want to reiterate my high 
admiration and support for the secretary general and that 
includes the fact that he did something that very few 
politicians in our country or anywhere else have done.
    Mr. Royce. Ambassador, might I make a suggestion?
    Ambassador Holbrooke. Yes, sir.
    Mr. Royce. Because we face a series of votes upon the 
conclusion of our hearing. I wonder if there would be any 
objection if your responses are to the record to Congresswoman 
McKinney and, at the same time, also, we very much appreciate 
your commitment to respond to the chairman's questions in 
writing, for the record.
    Mr. Royce. We want to thank you for your frankness. We want 
to thank Assistant Secretary Rice for her participation as 
well. Ambassador, we very much look forward to working with you 
and thank you so much for this hearing today.
    Ambassador Holbrooke. Thank you, sir.
    Mr. Royce. This hearing is adjourned.
    [Whereupon, at 3:42 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           February 15, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5150.025
    
    [GRAPHIC] [TIFF OMITTED] T5150.026
    
    [GRAPHIC] [TIFF OMITTED] T5150.005
    
    [GRAPHIC] [TIFF OMITTED] T5150.006
    
    [GRAPHIC] [TIFF OMITTED] T5150.007
    
    [GRAPHIC] [TIFF OMITTED] T5150.001
    
    [GRAPHIC] [TIFF OMITTED] T5150.002
    
    [GRAPHIC] [TIFF OMITTED] T5150.003
    
    [GRAPHIC] [TIFF OMITTED] T5150.004
    
    [GRAPHIC] [TIFF OMITTED] T5150.033
    
    [GRAPHIC] [TIFF OMITTED] T5150.034
    
    [GRAPHIC] [TIFF OMITTED] T5150.035
    
    [GRAPHIC] [TIFF OMITTED] T5150.036
    
    [GRAPHIC] [TIFF OMITTED] T5150.008
    
    [GRAPHIC] [TIFF OMITTED] T5150.009
    
    [GRAPHIC] [TIFF OMITTED] T5150.010
    
    [GRAPHIC] [TIFF OMITTED] T5150.011
    
    [GRAPHIC] [TIFF OMITTED] T5150.037
    
    [GRAPHIC] [TIFF OMITTED] T5150.038
    
    [GRAPHIC] [TIFF OMITTED] T5150.039
    
    [GRAPHIC] [TIFF OMITTED] T5150.040
    
    [GRAPHIC] [TIFF OMITTED] T5150.041
    
    [GRAPHIC] [TIFF OMITTED] T5150.042
    
    [GRAPHIC] [TIFF OMITTED] T5150.052
    
    [GRAPHIC] [TIFF OMITTED] T5150.053
    
    [GRAPHIC] [TIFF OMITTED] T5150.054
    
    [GRAPHIC] [TIFF OMITTED] T5150.055
    
    [GRAPHIC] [TIFF OMITTED] T5150.056
    
    [GRAPHIC] [TIFF OMITTED] T5150.057
    
    [GRAPHIC] [TIFF OMITTED] T5150.058
    
    [GRAPHIC] [TIFF OMITTED] T5150.059
    
    [GRAPHIC] [TIFF OMITTED] T5150.060
    
    [GRAPHIC] [TIFF OMITTED] T5150.043
    
    [GRAPHIC] [TIFF OMITTED] T5150.044
    
    [GRAPHIC] [TIFF OMITTED] T5150.045
    
    [GRAPHIC] [TIFF OMITTED] T5150.046
    
    [GRAPHIC] [TIFF OMITTED] T5150.061
    
    [GRAPHIC] [TIFF OMITTED] T5150.062
    
    [GRAPHIC] [TIFF OMITTED] T5150.047
    
    [GRAPHIC] [TIFF OMITTED] T5150.048
    
    [GRAPHIC] [TIFF OMITTED] T5150.049
    
    [GRAPHIC] [TIFF OMITTED] T5150.050
    
    [GRAPHIC] [TIFF OMITTED] T5150.051
    
    [GRAPHIC] [TIFF OMITTED] T5150.027
    
    [GRAPHIC] [TIFF OMITTED] T5150.028
    
    [GRAPHIC] [TIFF OMITTED] T5150.029
    
    [GRAPHIC] [TIFF OMITTED] T5150.030
    
    [GRAPHIC] [TIFF OMITTED] T5150.031
    
    [GRAPHIC] [TIFF OMITTED] T5150.032
    
    [GRAPHIC] [TIFF OMITTED] T5150.063
    
    [GRAPHIC] [TIFF OMITTED] T5150.064
    
    [GRAPHIC] [TIFF OMITTED] T5150.012
    
    [GRAPHIC] [TIFF OMITTED] T5150.013
    
    [GRAPHIC] [TIFF OMITTED] T5150.014
    
    [GRAPHIC] [TIFF OMITTED] T5150.015
    
    [GRAPHIC] [TIFF OMITTED] T5150.016
    
    [GRAPHIC] [TIFF OMITTED] T5150.017
    
    [GRAPHIC] [TIFF OMITTED] T5150.018
    
    [GRAPHIC] [TIFF OMITTED] T5150.019
    
    [GRAPHIC] [TIFF OMITTED] T5150.020
    
    [GRAPHIC] [TIFF OMITTED] T5150.021
    
    [GRAPHIC] [TIFF OMITTED] T5150.022
    
    [GRAPHIC] [TIFF OMITTED] T5150.023
    
    [GRAPHIC] [TIFF OMITTED] T5150.024
    

</pre></body></html>
